No. 19-440
In the

Supreme Court of the United States
Northern Trust Corporation, et al.,
Petitioners,
v.
Lindie L. Banks, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

BRIEF IN OPPOSITION

Derek G. Howard
Derek G. Howard Law Firm
42 Miller Avenue
Mill Valley, CA 94941
(415) 432-7192

Thomas J. Brandi
Brian J. Malloy*
The Brandi Law Firm
354 Pine Street, 3rd Floor
San Francisco, CA 94104
(415) 989-1800
bjm@brandilaw.com

Counsel for Respondents
*Counsel of Record
293741

A
(800) 274-3321 • (800) 359-6859

i
Question Presented
Where an irrevocable trust mandates that the trustee,
holding legal title to trust assets, has sole investment
authority and the beneficiary has no authority or control
over those assets, does an allegation by the captive trust
beneficiary that the trustee breaches its state law fiduciary
duties through the trustee’s unilateral and disclosed
favoring of its own affiliated funds over less costly nonaffiliated funds, constitute either “a misrepresentation
or omission of a material fact” or a “manipulative or
deceptive device or contrivance” made “in connection with
the purchase or sale of a covered security,” and therefore
precluded by the Securities Litigation Uniform Standards
Act of 1998, 15 U.S.C. §§ 77p(b), 78bb(f)(1)?

ii
TABLE OF CONTENTS
Page
Question Presented . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Statement of the Case . . . . . . . . . . . . . . . . . . . . 3
REASONS FOR DENYING THE PETITION  . . . . . . 7
I.

This Case Does Not Presently Implicate
SLUSA As A Result of The District Court’s
Subsequent Denial of Class Certification . . . . . . 7

II. The Ninth Circuit Correctly Applied
This Court’s Precedents  . . . . . . . . . . . . . . . . . . . . 8
III. There Is No True Circuit Conflict  . . . . . . . . . . 16
IV. Several Reasons Make This Case A
Poor Vehicle to Address This Issue . . . . . . . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Banks v. Northern Trust Corporation, et al.,
Case No. 2:16-cv-09141-JFW-JCx (C.D. Cal.) . . passim
Blue Chip Stamps v. Manor Drug Stores,
421 U.S. 723 (1975)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Chadbourne & Park LLC v. Troice,
571 U.S. 377 (2014)  . . . . . . . . . . . . . . . . . . . . . . . passim
Dabit, S.E.C. v. Zandford,
535 U.S. 813 (2002) . . . . . . . . . . . . . . . . . . . . .  11, 13, 14
Merrill Lynch Fenner & Smith, Inc. v. Dabit,
547 U.S. 71 (2009) . . . . . . . . . . . . . . . . . . . . . . . . 2, 9, 10
N.L.R.B. v. United Bhd. of Carpenters & Joiners,
Local No. 1913,
531 F.2d 424 (9th Cir. 1976) . . . . . . . . . . . . . . . . . . . . 12
Segal v. Fifth Third Bank NA,
581 F.3d 305 (6th Cir. 2009) . . . . . . . . . . . . . . . . .  17, 18
Siepel v. Bank of America,
526 F.3d 1122 (8th Cir. 2008) . . . . . . . . . . . . .  16, 17, 18
Taylor v. Mayo,
110 U.S. 330 (1884)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

iv
Cited Authorities
Page
United States v. O’Hagan,
521 U.S. 642 (1997) . . . . . . . . . . . . . . . . . . . . .  11, 13, 15
Statutes and Other Authorities
15 U.S.C. § 77p(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
15 U.S.C. § 78bb(f)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 20
15 U.S.C. § 78bb(f)(1)(A)  . . . . . . . . . . . . . . . . . . . . . . . . . . 9
15 U.S.C. § 78bb(f)(1)(B)  . . . . . . . . . . . . . . . . . . . . . . . . . . 9
15 U.S.C. § 78bb(f)(5)(B) . . . . . . . . . . . . . . . . . . . . . . . . . . 1
15 U.S.C. § 78bb(f)(5)(B)(i)(I) . . . . . . . . . . . . . . . . . . . . . . 7
Fed. R. Civ. P. 12(b)(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Fed. R. Civ. P. 23(f) . . . . . . . . . . . . . . . . . . . . . . . 3, 7, 18, 21
Restatement 2d, Agency § 14B . . . . . . . . . . . . . . . . . . . . 12
Restatement 2d, Trusts § 8 . . . . . . . . . . . . . . . . . . . . . . . 12
Sup. Ct. R. 10(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

1
Introduction
Petitioners contend the question presented is broadly
whether SLUSA’s1 “in connection with” requirement is
met “when the beneficiary alleges that the trustee used
trust assets to buy and sell the trustee’s own proprietary
securities rather than competitors’ securities and did so
for the trustee’s own pecuniary gain[.]”
The Ninth Circuit made no such blanket ruling. The
Ninth Circuit addressed a specific set trusts: irrevocable
trusts where the trustee has sole investment authority and
the captive beneficiary has no control over the investments
or the trustee. The decision expressly limited its holding
to only those types of trusts, leaving other issues for other
days. Pet. 18a, fn.6. This narrow decision addressing a
limited set of trusts is not an important issue warranting
this Court’s review.
This case also presently no longer implicates SLUSA.
SLUSA only precludes state law claims involving “covered
class actions,” defined as more than 50 persons. 15 U.S.C.
78bb(f)(5)(B). Following the filing of the petition, on
December 6, 2019, the District Court denied in its entirety
Respondents’ motion for class certification, leaving only
the two Respondents’ individual claims. 2 Accordingly, the
case is presently not a “covered class action,” rendering
SLUSA inapplicable.
1. The Securities Litigation Uniform Standards Act of 1998,
15 U.S.C. §§ 77p(b), 78bb(f)(1).
2. Banks v. Northern Trust Corporation, et al., Case No.
2:16-cv-09141-JFW-JCx (C.D. Cal.), at Dkt. 106. While Respondents
have a pending petition for permission to appeal this order pursuant
to Fed. R. Civ. P. 23(f) (Ninth Circuit Case No. 19-80178), the current
case involves only Respondents and their individual claims.

2
The Ninth Circuit also correctly applied this Court’s
precedents, most notably Merrill Lynch Fenner & Smith,
Inc. v. Dabit, 547 U.S. 71 (2009) and Chadbourne &
Park LLC v. Troice, 571 U.S. 377 (2014), concluding that
SLUSA’s “in connection with” requirement is absent under
the complaint’s specific allegations. Nor is there any true
Circuit conflict, as the Ninth Circuit is the only Circuit
since Troice to address the “in connection with” element
for any trustee, much less the narrow class of captive
beneficiaries here. Even without Troice, no split exists
with the two cases Petitioners cite: there is no indication
that those trusts only involve irrevocable trusts whose sole
investment discretion is vested in the trustee; the legally
significant distinction between an agent and trustee is not
addressed; and those cases contain allegations of fraud,
which are absent here.
Finally, this case presents a poor vehicle for reviewing
the issue for several reasons. This case presently no longer
implicates SLUSA in light of the District Court’s denial of
class certification. This case also involves only a limited
class of trusts, not all of them, which is not of importance
warranting this Court’s attention. Moreover, the second
SLUSA requirement of allegations of fraud are absent
here, as Respondents do not allege fraud or a deceptive
device. Respondents instead allege breaches of fiduciary
duties in the context of the disclosed disproportionate
investments in Petitioners’ own funds. Respondents also
have an entirely separate claim involving unlawful and
inflated tax preparation fee charges, which are not subject
to this petition, with a trial date on April 28, 2020. 3
3. See Banks v. Northern Trust Corporation, et al., Case No.
2:16-cv-09141-JFW-JCx (C.D. Cal.), at Dkt. 86, p. 34. The district

3
For all these reasons, the petition should be denied.
Statement of the Case
The Lindstrom Trust is a pair of irrevocable trusts
created decades ago which leave full and complete
investment discretion with the trustee, currently
Petitioner Northern Trust Company (“Northern”).
Northern as trustee holds legal title to the trust assets.
Under the terms of the trust, no one else – neither
beneficiary Respondent Lindie L. Banks, nor remainder
beneficiary Respondent Erica LeBlanc, nor anyone
else other than Northern – has the power, authority, or
discretion to make investments on behalf of the Lindstrom
Trust. Under the complaint’s allegations, Respondents are
mere bystanders to any activity relating to the purchase,
sale, or holding of any investment.
Respondents allege two independent breaches of
state law fiduciary duties against Northern, neither
involving securities fraud. First, on claims not subject to
this petition, Respondents on behalf of themselves and a
proposed Tax Preparation Fee Class allege that Northern
has unlawfully charged inflated and unsupported fees
for the preparation of routine, mandatory fiduciary
tax returns. The Ninth Circuit’s unanimous decision
correctly held that these fee claims lacked any plausible
court denied Respondents’ request to stay proceedings pending the
Ninth Circuit’s decision on the Fed. R. Civ. P. 23(f) Petition. Id. at
Dkt. 112; see fn. 2, supra. Respondents have a pending motion to
stay the district court proceedings with the Ninth Circuit, along
with the pending Fed. R. Civ. P. 23(f) Petition in the Ninth Circuit.
Nevertheless, the current case status is two Respondents’ individual
claims with an April 28, 2020 trial date.

4
relationship to SLUSA’s basic requirement of involving
“covered securities,” and that Respondents also plausibly
pled these claims under Fed. R. Civ. P. 12(b)(6). Pet.
18a-21a. Northern does not seek this Court’s review of
those holdings.
Respondents also allege on behalf of themselves and
a proposed Investment Class that Northern breached
its state law fiduciary duties of loyalty and prudent
administration by favoring its own Northern funds
(“proprietary” or “affiliated” funds) over better performing
and less costly non-proprietary funds. Although hidden
in Northern’s petition, but critical to the Ninth Circuit’s
decision, Respondents and this proposed Investment Class
are limited to those trusts where the beneficiaries have no
authority to make or even to delegate investment decisions.
Trustee Northern is not an agent of Respondents, and
Northern alone has the sole and complete authority to
make investment decisions regarding the trust assets to
which it holds legal title. Respondents are not involved,
either directly or vicariously, in the purchase, sale, or
holding of any investment.
Respondents’ investment claims do not allege any
fraudulent or deceptive conduct on behalf of Northern,
which is also required for SLUSA to preclude a claim.
Respondents are well-aware of Northern’s investments,
as they receive account statements disclosing the
disproportionate investments in Northern’s proprietary
funds. Rather, Respondents, as captive beneficiaries of
a trustee over whom they do not control, contend that
Northern’s favoring its own funds at the expense of other
non-affiliated funds breaches the trustee’s fiduciary
duties.

5
This Court’s Troice decision requires a connection
between the alleged fraudulent conduct and the purchase
or sale of a covered security in order for SLUSA to preclude
the claim. Far from creating a “trustee exception” to
SLUSA,4 the Ninth Circuit correctly applied this Court’s
precedents to the allegations involving a limited set of
trusts: irrevocable trusts where the trustee has complete
investment discretion and the plaintiff-beneficiary has no
control or authority over the trustee or trust assets. In
applying this Court’s precedents in conjunction with the
legal distinction between an agent and a trustee, the Ninth
Circuit correctly held that under the narrow allegations of
the complaint, SLUSA’s “in connection with” requirement
was not met. The Ninth Circuit expressly acknowledged
its limited holding went no further. 5
Importantly, the investment claims in this case
do not involve trusts where the grantor or beneficiary
retains control over the investments or trust assets. The
investment claims in this case also do not involve a grantor
or beneficiary delegating their investment authority to the
trustee or a third party. The petition thus does not address
an issue of importance for this Court. In any event, the
Ninth Circuit did not err in applying this Court’s decisions
to these facts.
Nor is there a true conflict amongst the Circuits.
The Ninth Circuit is the only Circuit since Troice to
4. Brief of Amici Curiae American Bankers Association and
The Bank Policy Institute (“Amici Curiae Br.”), 2, 8-9.
5. The Ninth Circuit therefore did not address whether
Northern satisfied SLUSA’s second required element of allegations
of fraud or a deceptive device.

6
address SLUSA’s “in connection with” element for any
trustee, much less the specific class of trusts here. Even
without Troice, no split exists. In the Sixth and Eighth
Circuit cases cited by Northern, there is no indication
that the trusts only involve irrevocable trusts whose sole
investment discretion is vested in the trustee; the legally
significant distinction between an agent and trustee is
unaddressed; and those complaints contain allegations of
fraud, which are absent here.
Finally, the petition should be denied because this case
is a very poor vehicle to address the question for multiple
reasons. Since the filing of the petition, the District Court
has denied class certification, so there is presently no
“covered class action” as required by SLUSA. The Ninth
Circuit’s decision does not involve an issue of widespread
importance because the investment claims are limited to
those trusts where the trustee has complete investment
discretion; the Ninth Circuit expressly stated that its
decision did not apply to all trusts. This case also does not
involve securities fraud. Respondents do not allege fraud
or deception, so the second SLUSA requirement Northern
must establish is missing. There is an entirely separate
claim not subject to this petition for unlawful and inflated
tax preparation fee charges which is being pursued in the
District Court, with a trial date of April 28, 2020.
For all these reasons, the petition should be denied.

7
REASONS FOR DENYING THE PETITION
I.

This Case Does Not Presently Implicate SLUSA As
A Result of The District Court’s Subsequent Denial
of Class Certification

A threshold requirement for SLUSA to preclude
a state law claim is that the claim involves a “covered
class action,” which requires “more than 50 persons or
prospective class members,” 15 U.S.C. 78bb(f)(5)(B)(i)(I).
After this petition was filed, on December 6, 2019, the
District Court denied in its entirety Respondents’ motion
for class certification on both the tax preparation fee claims
and the investment claims, leaving only Respondents’
individual case. See Banks v. Northern Trust Corporation,
et al., Case No. 2:16-cv-09141-JFW-JCx (C.D. Cal.), at Dkt.
106. Accordingly, this case presently no longer meets the
threshold SLUSA requirement of a “covered class action.”
Respondents do have a pending petition for permission
to appeal this order in the Ninth Circuit pursuant to Fed.
R. Civ. P. 23(f). See Ninth Circuit Case No. 19-80178. If
the Ninth Circuit denies Respondents’ petition, the case
will remain only two individual Respondents, for which
SLUSA by its terms does not apply. If the Ninth Circuit
grants the petition, the merits appeal will likely last over
a year before a decision, which results in additional vehicle
problems. See Section IV, infra. And even if the Ninth
Circuit decides to hear the class certification denial on
the merits, the Ninth Circuit could affirm the denial of
class certification, again leaving only the two Respondents’
claims.

8
Because SLUSA cannot apply to preclude the
presently remaining individual claims in this case, the
petition should be denied.
II. The Ninth Circuit Correctly Applied This Court’s
Precedents
Nor ther n’s pet it ion present s a f u nda ment a l
mischaracterization of the complaint’s allegations and
the Ninth Circuit’s opinion. The Ninth Circuit applied the
long-established legal distinction between an agent and a
trustee to this Court’s precedents, correctly concluding
that where, as here, there is a trustee of an irrevocable
trust who holds legal title to trust assets and controls
all investment decisions, the plaintiff-beneficiary cannot
as a matter of law buy, sell, or hold covered securities in
connection with any purported fraudulent conduct.6 This
correct decision applying centuries old distinction between
a trustee and agent and this Court’s SLUSA precedent to
a complaint’s allegations involving a specific set of trusts
does not meet the standards for this Court’s review.
SLUSA’s preclusive provisions amended the Securities
Act of 1933 and the Securities Exchange Act of 1934: “No
covered class action based upon the statutory or common
law of any State . . . may be maintained in any State or
Federal court by any private party alleging” that the
defendant made “a misrepresentation or omission of a
material fact in connection with the purchase or sale of a
6. Amici Curiae’s argument that the Ninth Circuit has created
a broad “trustee exception” to SLUSA is also based on the erroneous
contention that the Ninth Circuit’s decision addresses all trusts,
when in fact it is limited to this specific class of irrevocable trusts.

9
covered security” or “that the defendant used or employed
any manipulative or deceptive device or contrivance in
connection with the purchase or sale of a covered security.”
15 U.S.C. §78bb(f)(1)(A)-(B). In other words, if the plaintiff
alleges either “a misrepresentation or omission of a
material fact” or “that the defendant used or employed any
manipulative or deceptive device,” SLUSA precludes the
claim if the misrepresentations, omissions or manipulative
or deceptive devices occurred “in connection with the
purchase or sale of a covered security.” Id.
The Ninth Circuit held that the “in connection with”
requirement was absent under the complaint’s allegations
where a trustee, holding legal title to trust assets, also
has sole and complete investment authority over trust
assets and the beneficiary has no power or control over
the trustee or the investments. Pet. 6a-18a. The Ninth
Circuit’s decision is entirely consistent with this Court’s
SLUSA decisions of Dabit, 547 U.S. 71, and Troice, 571
U.S. 377.
In Dabit , this Court issued its f irst decision
interpreting SLUSA, grappling with the definition of
the “in connection with” requirement. In Dabit, it was
not buyers or sellers of securities, but security holders
that brought the class action. While instructing courts
to apply a broad construction of SLUSA, Dabit held that
class actions involving “holders” of covered securities fell
within SLUSA. Id. at 85-86, 89.
Dabit’s in-depth analysis of the necessary connection
between SLUSA and the federal securities laws provided
new guidance that the fraudulently induced “holding” of
securities implicated SLUSA even though the violation

10
did not actually involve buying or selling. Compare Blue
Chip Stamps v. Manor Drug Stores, 421 U.S. 723 (1975)
(plaintiff alleging a private right of action under securities
laws must be an actual purchaser or seller of securities).
Notably, however, this Court cautioned that the inclusion
of “holding” was only a consistency, not to be considered
as expanding the reach of SLUSA to preempt state law
claims unrelated to securities fraud, stating that “[t]his
is hardly a situation, then, in which a federal statute has
eliminated a historically entrenched state-law remedy.”
Id. at 88.
Eight years later, Troice expanded on Dabit’s analysis.
571 U.S. 377. Troice involved the class action plaintiffs’
purchase of uncovered securities sold by disgraced
financier Allen Stanford and the Stanford International
Bank. The plaintiffs brought a class action against entities
and individuals who allegedly helped perpetrate the fraud.
Because Stanford had falsely told the victims that the
uncovered securities were backed by covered securities,
id. at 380, the defendants brought a motion under SLUSA.
The District Court dismissed the claims but the Fifth
Circuit reversed the dismissal.
Holding that the claims were not precluded by
SLUSA, this Court held (7-2) that “[a] fraudulent
misrepresentation or omission is not made ‘in connection
with’ . . . a ‘purchase or sale of a covered security’ ” unless
that fraudulent conduct “is material to a decision by one
or more individuals (other than the fraudster) to buy or
sell a ‘covered security.’ ” Id. at 387 (emphasis supplied).
The Court recognized that “the ‘someone’ making that
decision to purchase or sell must be a party other than
the fraudster.” Id. at 388. “If the only party who decides
to buy or sell a covered security as a result of a lie is the

11
liar, that is not a ‘connection’ that matters.” Id.; see also
id. at 396-97.
Troice is explicit: SLUSA only precludes a state
law claim when the gravamen of the claim alleges
misrepresentations or omissions of fact that are material
to the decision to purchase or sell a covered security.
Id. at 387-88, 393. The use of the term “material” is not
an accident. The majority specifically rejected the two
dissents’ arguments that the majority was shrinking the
scope of SLUSA preemption. Id. at 394-95.
In reaching this conclusion, this Court emphasized
that the common thread in every securities case in which
it found fraud to be “in connection with” a purchase or
sale of a security involved “victims who took, who tried
to take, who divested themselves of, who tried to divest
themselves of, or who maintained an ownership interest
in financial instruments that fall within the relevant
statutory definition.” Id. at 388 (emphasis in original)
(citing, inter alia, Dabit, S.E.C. v. Zandford, 535 U.S. 813
(2002), and United States v. O’Hagan, 521 U.S. 642 (1997).)
Troice thus requires that the alleged misrepresentation
be material to the decision to buy, sell, or hold a covered
security by someone other than the fraudster. Troice, 571
U.S. at 380 (“Nothing in the regulatory statutes suggests
their object is to protect persons whose connection with
the statutorily defined securities is more remote than
words such as ‘buy,’ ‘sell,’ and the like, indicate.”); id. at
396-97. The Ninth Circuit faithfully applied this decision
in concluding that Respondents, who did not have legal
title to the trust assets, made no decision either directly
or indirectly, to buy, sell, or hold anything, much less a
covered security.

12
This correct application of this Court’s precedent
was made in the context of the legal distinction between
an agent and a trustee. While Northern dismisses the
distinction between a trustee and an agent as irrelevant,
Pet. 18, the law does not. See Taylor v. Mayo, 110 U.S.
330, 334-35 (1884). While both involve fiduciary duties,
there are significant differences between the two. An
agent acts for and on behalf of the principal, subject to the
principal’s control. Pet. 12a (citing N.L.R.B. v. United Bhd.
of Carpenters & Joiners, Local No. 1913, 531 F.2d 424,
426 (9th Cir. 1976), citing Restatement 2d, Agency § 14B
and Restatement 2d, Trusts § 8). In contrast, a “trustee
acts for the benefit of the beneficiaries of the trust; he is
an agent only if he agrees to hold title for the benefit and
subject to the control of another.” Id.
It is not only that the trustee holds legal title to the
trust assets which distinguishes a trustee from an agent.
Rather, as the Ninth Circuit correctly pointed out, a
critical distinction is the degree of control that exists
between an agent and a trustee. Pet. 12a-14a. The Ninth
Circuit explained:
Northern overlooks the fact that the principal
controls and directs the agent, who the
principal likely has chosen. Unlike in the
irrevocable trust context, a principal can revoke
control from an agent in the course of their
relationship. In the irrevocable trust context,
by contrast, unless otherwise specified in the
trust instrument, a beneficiary cannot alter
the powers of a trustee or remove the trustee
without petitioning a court of law. See Cal.
Prob. Code § 17200(10) (providing removal

13
power to probate courts); Arnold H. Gold
et al., California Civil Practice Probate and
Trust Proceedings § 24:47, Westlaw (database
updated May 2019) (explaining trustees can
be removed only in accordance with the trust
instrument or by a court).
Pet. 13a.
The Ninth Circuit recognized that “[u]nlike an agentprincipal relationship, beneficiaries who are not also
trustees of an irrevocable trust cannot direct Northern’s
actions as the trustee.” Pet. 11a. Therefore, “even if
Northern engaged in fraudulent conduct, that conduct
does not change the fact that its beneficiaries are unable
to purchase or sell covered securities.” Id.
Northern did not make the imprudent investments at
the direction of Respondents. Nor did Northern, acting
with authority from Respondents, make the imprudent
investments. Rather, the complaint alleges that Northern,
acting under its sole and exclusive investment authority,
chose its own proprietary funds when managing trusts
where it was not subjected to others’ direction.
In arguing that the Ninth Circuit’s decision conflicts
with Zandford and O’Hagan, Northern makes similar
arguments this Court rejected in Troice.
The Ninth Circuit correctly analyzed why Zandford is
inapplicable to this complaint’s allegations. Pet. 12a-13a.
In Zandford, the stockbroker “duped” an elderly man into
placing funds into a joint account over which Zanford had
power of attorney. Zanford, without notice or authorization,

14
wrote checks misappropriating funds for his own personal
benefit from a mutual fund account, which Zandford
knew required that securities be sold to fund the checks.
Zandford, 535 U.S. at 820-21. The fraud in Zanford was
unauthorized and undisclosed sales of securities over
which the victim-customer had an ownership interest.
In finding a securities law violation, the Court cautioned
that “the statute must not be construed so broadly as
to convert every common-law fraud that happens to
involve securities into a violation” of the federal securities
laws. Id. at 820 (emphasis supplied).
Zandford was grounded in agency principles and the
importance of having securities law apply to the scheme
involved in that case. Id. at 822-23. This Court recognized
that the stockbroker’s fraud “undermines the value of
a discretionary account” where customers “delegate
authority to a broker who will make decisions in their best
interests without prior approval” and “[i]f such individuals
cannot rely on a broker to exercise that discretion for
their benefit, then the account loses its added value.” Id.
at 822-23.
The allegations here are therefore not “exactly like
Zandord” as Northern suggests. Pet. 4. In Zandford, the
defraud victim was the principal who gave authority over
its investments to the fraudster, who then misappropriated
the funds without disclosure. Here, Respondents neither
control the investments nor the trustee, but are at the
mercy of Northern’s investment decisions.
Additionally, Zandford found fraud based on a lack
of disclosure. Zandford, 535 U.S. at 820-21. That is the
opposite of the allegations here: Respondents do not allege

15
either misrepresentations or non-disclosure. Respondents
allege that the breach of fiduciary duty occurs in the
context of the disclosed disproportionate amount of
Northern propriety funds, set forth on account statements,
in relation to non-affiliated funds.
The Ninth Circuit’s decision is also consistent with
O’Hagan. O’Hagan involved criminal liability under
the “misappropriation theory,” which is holds that “a
fiduciary’s undisclosed, self-serving use of a principal’s
information to purchase or sell securities, in breach of a
duty of loyalty and confidentiality, defrauds the principal
of the exclusive use of that information.” 521 U.S. at 652.
Liability under this theory turns on the agent-fiduciary’s
misappropriation of the principal’s confidential information
entrusted to the fiduciary. Id.
The Ninth Circuit’s decision expressly distinguishes
the irrevocable trust present here with the principal/agent
relationship. Pet. 10a-14a. O’Hagan turns on the principal/
agent relationship, as the misappropriation theory
requires that the fiduciary misappropriate confidential
information entrusted by the principal. See id. at 652,
653-54, 656. The defrauded principal, having an ownership
interest in the confidential information, provides the
confidential information to the agent/fiduciary, who in
breach of its fiduciary duties and without disclosing
to the principal, trades on that nonpublic information.
O’Hagan recognized that in this situation, more than just
the fraudster is involved: the defrauded principal who
provided the fiduciary with confidential information as
well as the investing public. Id. at 656.

16
Here, the trustee Northern is not defrauding
anyone. Northern is not in an agency relationship with
Respondents, nor is Northern using any nonconfidential
information from Respondents in implementing its
disclosed disproportionate investments in Northern’s
proprietary funds.7
The petition should be denied because the Ninth
Circuit’s opinion correctly applied and is consistent with
this Court’s precedents.
III. There Is No True Circuit Conflict
Although Northern contends the Ninth Circuit’s
decision conflicts with the Sixth and Eighth Circuits (Pet.
19-23), no actual Circuit conflict exists. Since Troice,
the Ninth Circuit is the only Circuit to address whether
SLUSA’s “in connection with” requirement is met when
a breach of fiduciary duty claim is brought against an
irrevocable trustee with complete investment discretion
and where the beneficiary has no authority or control.
Even in the absence of Troice there is no actual Circuit
split. In Siepel v. Bank of America, 526 F.3d 1122 (8th Cir.
2008), the plaintiffs alleged both federal securities law
7. The Ninth Circuit also held that the District Court
erroneously concluded as a matter of law at the pleading stage that
Northern was an agent of Respondents. Pet. 17a-18a. The District
Court’s erroneous conclusion was not supported by the complaint’s
allegations; the complaint, in fact, alleges the opposite of agency. Pet.
17a. Moreover, the issue of whether agency exists is not proper on a
motion to dismiss but as a factually intensive inquiry is reserved for
summary judgment. Pet. 17a-18a. These rulings are not challenged
in Northern’s petition.

17
violations and breach of state law fiduciary duties. Id. at
1124. The state law claims were grounded in “failing to
disclose conflicts of interest in its selection of nationallytraded investment securities.” Id. The district court
dismissed the federal securities claims on the merits and
the state law claims as precluded under SLUSA. Id. Siepel
affirmed, holding that “[g]iven the identical coverage of
Section 10(b) and SLUSA, it follows that the Plaintiffs’
state-law claims are preempted.” Id. at 1127.
Siepel and Banks are entirely distinguishable. First,
unlike the Siepel claims which were also expressly based
on federal securities violations, Respondents’ claims are
not. Respondents’ investment claims are not based on
any non-disclosures but on disclosed disproportionate
investments in Northern’s proprietary funds. Second,
there is no indication that the trusts involved in Siepel
only involved irrevocable trusts whose sole investment
discretion was vested in the trustee. Siepel indicates the
opposite: “According to the Plaintiffs, the Bank purchased
securities as a trustee on their behalf without disclosing
that the Bank profited from the transactions.” Id. at
1127 (emphasis supplied). The Ninth Circuit’s decision is
grounded on this critical missing element from Siepel.
Third, there is no analysis regarding the legally significant
distinction between an agent and a trustee.
Likewise, there is no conflict with the Sixth Circuit. In
Segal v. Fifth Third Bank NA, 581 F.3d 305 (6th Cir. 2009),
the plaintiff was the beneficiary of multiple “fiduciary
accounts” for which the bank served as a corporate
fiduciary. The same three differences with Siepel are
present here. The first being that no indication exists that
the Segal plaintiff was a captive beneficiary of a trust where

18
the trustee has sole and complete investment discretion.
A second difference is the Segal complaint, unlike
Respondents’ complaint, alleged “misrepresentations,
material omissions and manipulation.” Id. at 309-10.
Finally, as with Siepel, the important distinction between
an agent and a trust is not addressed.
IV. Several Reasons Make This Case A Poor Vehicle to
Address This Issue
Review should be also denied because this case is a
poor vehicle to address the issue, for at least five reasons.
To begin, as noted above, the denial of Respondents’
motion for class certification, presently leaving only
individual claims, removes this case from SLUSA
preclusion. Where there is no longer a “covered class
action,” it would be a poor vehicle to address the SLUSA
issue presented, as SLUSA is only applicable to “covered
class actions.”
Even if the Ninth Circuit grants Respondents’
pending Fed. R. Civ. P. 23(f) petition for permission to
appeal that denial, which would be on both the denial
of certification as to the tax preparation fee claims not
subject to Northern’s petition and the investment claims,
it would likely be over a year before a decision on the
merits issued. And, the Ninth Circuit could ultimately
affirm the class certification denial, leaving in place the
two Respondents’ individual claims, which SLUSA could
not preclude. All of this makes this case an inappropriate
vehicle to address the issue.

19
Second, the Ninth Circuit’s opinion is “limited to
claims involving a trustee-beneficiary irrevocable trust
relationship in which the trust instrument does not grant
the beneficiary financial management trustee powers.”
Pet. 18a, fn.6. The Ninth Circuit left open “how Troice
may affect other state-law claims.” Id.
Northern and Amici both overstate the importance
of this case. Pet. 22-25; Amici Curiae Br. 5. They ask this
Court to review a decision that applies to only a specific
set of trusts: those where the investment discretion lies
solely with the trustee and the beneficiary has no control
over the investments. The alleged impact on trustees and
the statistics cited by Northern, Pet. 22-25, address all
“personal trust accounts,” not simply the limited class
involved here. Similarly, the numbers cited by Amici
apply to all corporate trustees. Amici Curiae Br. 10-11.
Neither Northern nor Amici identify how many of those
trusts are limited to the complaint’s allegations here.
Whether SLUSA applies to this specific class of trusts is
not a compelling or important issue worthy of this Court’s
review. See Sup. Ct. R. 10(a).
In a similar vein, the claim that that litigants “will
flock to the Ninth Circuit” (Pet. 22-23) rings hollow. See
also Amici Curiae Br. 10-12. Neither Northern nor Amici
identify a single case filed in the Ninth Circuit since the
July 5, 2019 decision supporting their speculation. At best,
more percolation is necessary to determine the actual
effect, if any, of the Ninth Circuit’s limited decision.
Third, this case is missing the required second element
for SLUSA to apply: allegations of fraud or a deceptive
device. SLUSA requires that Respondents’ claim allege

20
that the defendant made “a misrepresentation or omission
of a material fact” or “that the defendant used or employed
any manipulative or deceptive device or contrivance,” 15
U.S.C. §78bb(f)(1), in connection with the purchase or sale
of a covered security.
Respondents have not alleged securities fraud. They
have alleged the opposite: Northern breached its fiduciary
duties of loyalty and prudent administration by favoring its
own proprietary funds over better non-proprietary fund
alternatives. Pet. 4a. The investments Northern made for
the Lindstrom Trust were not done in secret, but were
disclosed to Respondents in account statements received. 8
Resolving a SLUSA issue where the second requirement
of SLUSA is absent is another reason why this case is a
poor vehicle for the issue presented.
Further, given its self-constrained holding, the Ninth
Circuit’s ruling does not prevent “the SEC from enforcing
securities laws against trustees who deceptively trade in
securities, to the detriment of trust beneficiaries.” Pet. 25.
This Court has previously rejected similar hypothetical
claims. See Troice, 571 U.S. at 393-94. Respondents’
allegations do not allege deceptive trading in securities
or any allegation remotely connected to securities fraud.
Respondents, instead, allege that Northern’s investment
strategy is known, but due to the captive nature of the
beneficiaries, they are without control to stop it absent a
state law breach of fiduciary duty lawsuit. Pet. 4a.9
8. See, e.g., Dkt. 51 at ¶¶ 37-42, 278, 325-338, Banks v. Northern
Trust Corporation, et al., Case No. 2:16-cv-09141-JFW-JCx (C.D.
Cal.).
9. In disregarding the complaint’s allegations on a pleading
motion, Amici discuss situations involving hypothetical beneficiaries

21
Fourth, Respondents also allege entirely separate
and independent unlawful conduct involving the charging
of excessive and unsupported fees for routine tax return
preparation. Pet. 18a-21a. These tax preparation fee claims
having nothing to do with “covered securities,” much less
causing a securities transaction to occur through fraud or
deceit. See id. As the Ninth Circuit recognized, separate
from the “in connection with” element missing, SLUSA
did not bar these claims because “the fee claims also lack
any plausible relationship to covered securities.” Pet.
19a. Northern did not seek review of this ruling. Nor
did Northern seek review of the Ninth Circuit’s finding
that Respondents had plausibly pled the tax preparation
claims. See id.
Finally, while Northern argues there is no reason to
wait for this case to proceed through discovery and trial
(Pet. 26), that ignores the case schedule. Discovery closes
on February 10, 2020, and trial is set for April 28, 2020.10

that are neither in the complaint nor applicable to the complaint’s
allegations. See Amici Curiae Br. 16, fn.7. The Court should
disregard these arguments. The entire First Amended Complaint
is located at Dkt. 51 in Banks v. Northern Trust Corporation, et al.,
Case No. 2:16-cv-09141-JFW-JCx (C.D. Cal.).

10. See fns. 2 and 3, supra. While Respondents have a pending
petition for permission to appeal the order denying class certification
pursuant to Fed. R. Civ. P. 23(f) and motion to stay the district
court proceedings, the current case involves only Respondents’
individual claims with an April 28, 2020 trial date. These imminent
case proceedings unrelated to this petition in the Ninth Circuit and
the district court further confirm that this is not the right vehicle to
address the issue presented.

22
For all these reasons, this case presents an
exceptionally poor vehicle to address the question
presented.
CONCLUSION
For the foregoing reasons, the petition for writ of
certiorari should be denied.
				

Respectfully submitted,
Brian J. Malloy
Counsel of Record
The Brandi Law Firm
354 Pine Street, 3rd Floor
San Francisco, CA 94104
(415) 989-1800
bjm@brandilaw.com
Counsel for Respondents

